Report No. D-2008-078         April 9, 2008




     Training Requirements for U.S. Ground
         Forces Deploying in Support of
            Operation Iraqi Freedom
Additional Information and Copies
25B




To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
                     HU                                  UH




Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
26B




To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector General
for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and requests can
also be mailed to:

                          ODIG-AUD (ATTN: Audit Suggestions)
                          Department of Defense Inspector General
                          400 Army Navy Drive (Room 801)
                          Arlington, VA 22202-4704




Acronyms and Abbreviations
27B




CENTCOM                         U.S. Central Command
FORSCOM                         U.S. Army Forces Command
MEF                             Marine Expeditionary Force
OIF                             Operation Iraqi Freedom
RTC                             Regional Training Center
                                       !1\I~pl=(;Trl~   GENERAL
                                      DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON, VIRGINIA 22202-4704                     09



MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                MANAGEMENT & COMPTROLLER)
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               NAVAL INSPECTOR GENERAL
               DEPARTMENT OF THE NAVY DEPUTY NAVAL INSPECTOR
                GENERAL FOR MARINE CORPS MATTERS


SUBJECT:       Report on Training Requirements for U.S. Ground Forces Deploying in Support of
               Operation Iraqi Freedom (Report No. D-2008-078)

We are providing this report for your information and use. No written response to this report was
required, and none was received. Therefore, we are publishing this report in final form.

We appreciate the courtesies extended to the staff. Please direct questions to
Mr. Timothy M. Wimette at (703) 604-8876 (DSN 664-8876) or Ms. Melissa M. Quealy at
(703) 604-9283 (DSN 664-9283). The team members are listed inside the back cover.



                                             obert F. Prinzbach II
                                            Acting Assistant Inspector General
                                            Readiness and Operations Support
                    Report No. D-2008-078 (Project No. D2007-D000LH-0108.002)
                                           April 9, 2008

               Results in Brief: Training Requirements for
               U.S. Ground Forces Deploying in Support
               of Operation Iraqi Freedom

What We Did
0B                                                       Client Comments
                                                         2B




Our overall audit objective was to determine             We provided a draft of this report on
whether U.S. ground forces supporting                    March 17, 2008. No written response to this
Operation Iraqi Freedom received training                report was required, and none was received.
necessary to meet operational requirements.              Therefore, we are publishing this report in final
Specifically, we determined whether                      form.
requirements reflect the training necessary in the
area of operation. This is the second in a series
of reports addressing training for U.S. ground
forces supporting Operation Iraqi Freedom.


What We Found
1B




Combatant commanders are responsible for
giving authoritative direction to subordinate
commands and forces, while coordinating and
approving the training necessary to carry out
missions assigned to the command.

U.S. Central Command requires that all                        A simulated improvised explosive device
personnel deploying in support of Operation                   emits a firestorm as soldiers experience
Iraqi Freedom be trained in 14 areas, including                    the concussion and noise of an
the defeat of improvised explosive devices, land                     explosion during training.
                                                                      Photo Courtesy of U.S. Army
navigation, and rules of engagement. The
Services incorporated the 14 theater-specific
training areas into their predeployment and
annual training requirements. In addition, the
Services effectively used a variety of means,
such as lessons learned and input from units, to
update predeployment training exercises. As a
result, the Services provided realistic, theater-
inspired training for units deploying in support
of Operation Iraqi Freedom.




                                                     i
Table of Contents

Results in Brief                                              i

Introduction                                                  1

       Objectives                                            1
       Background                                            1
       Review of Internal Controls                           2

Finding. Training Requirements for Operation Iraqi Freedom    3
          Deployments

Appendix

       A. Scope and Methodology                               9
             Prior Coverage                                  10
Introduction
Objectives
3B




Our overall audit objective was to determine whether U.S. ground forces supporting
Operation Iraqi Freedom (OIF) received training necessary to meet operational
requirements. Specifically, we determined whether requirements reflect the training
necessary in the area of operation. This is the second in a series of reports addressing
training requirements for ground forces supporting OIF. See Appendix A for a
discussion of the audit scope and methodology and prior coverage related to the audit
objectives.

Background
4B




DoD Policy on Military Training
1B




DoD Directive 5100.1, “Functions of the DoD and Its Major Components,” August 1,
2002, states that Military Services are responsible for developing Service training,
doctrines, procedures, tactics, and techniques. In addition, DoD Directive 1322.18,
“Military Training,” September 3, 2004, requires that training resemble the conditions of
actual operations and be responsive to the needs of the combatant commanders.
Combatant commanders are responsible for giving authoritative direction to subordinate
commands and forces, while coordinating and approving the training necessary to carry
out missions assigned to the command.

U.S. Central Command
12B




U.S. Central Command (CENTCOM) is one of the Secretary of Defense’s nine
worldwide combatant commands. The mission of CENTCOM is to conduct operations
that attack, disrupt, and defeat terrorism and to protect vital interests of the United States
in the CENTCOM area of responsibility: the Middle East. The goal of CENTCOM in
Iraq is to help establish a representative government that upholds the rule of law, respects
the rights of its people, provides security, and is an ally in the War on Terror.

U.S. Army Forces Command and U.S. Army, Europe
13B




U.S Army Forces Command (FORSCOM) trains, mobilizes, and deploys combat-ready
Army National Guard, Army Reserve, and active-duty soldiers in the continental United
States. First U.S. Army, a three-star command under FORSCOM, is responsible for the
training, mobilization, and deployment support for reserve component units in
FORSCOM. U.S. Army, Europe provides oversight and training to units stationed in the
European theater.

Navy Expeditionary Combat Command
14B




The Navy Expeditionary Combat Command serves as the single functional command for
the Navy’s expeditionary forces. The Navy Expeditionary Combat Command has
responsibility to staff, train, and equip Navy expeditionary forces. The Navy also


                                              1
deploys individual augmentee sailors to support Army missions. Individual augmentees
are active-duty or reserve sailors with needed skills that are deployed to assist another
command or Service. The Navy’s Expeditionary Combat Readiness Center directly
assists these sailors by coordinating with the Army to ensure they get the proper stateside
training.

Air Force Security Forces and Second Air Force
15B




The Air Force Director of Security Forces develops policy for training security force
units, the largest and most frequently deployed ground combat unit for the Air Force.
The Air Force Security Forces Center provides guidance to the Air Force major
commands on implementing security forces training and monitors all security forces
training programs.

The Air Force also provides units to support other Service missions, which are often
referred to as In-Lieu-Of missions. For these missions, the Air Force provides forces
capable of carrying out a mission that would normally come under another Service’s core
mission. Second Air Force, which falls under the Air Education and Training Command,
is responsible for conducting basic military and technical training for Air Force personnel
and provides oversight to the training of airmen supporting In-Lieu-Of missions.

16B   Marine Corps Training and Education Command
The Marine Corps Training and Education Command is responsible for developing,
coordinating, resourcing, executing, and evaluating training to ensure Marines are
prepared to meet the challenges of operating environments. The Marine Corps Training
and Education Command is the higher headquarters for the Marine Air Ground Task
Force Training Command, which has responsibility for the administration and conduct of
live-fire, combined arms training of active and reserve units.

Review of Internal Controls
5B




We determined that the internal controls over the training for U.S. ground forces
supporting OIF were sufficient to ensure that Service training programs adequately
reflected the training necessary for the CENTCOM area of operation. The Services had
adequate processes and procedures in place to incorporate mandatory CENTCOM
training into their own predeployment and annual training requirements.




                                             2
Training Requirements for Operation Iraqi
Freedom Deployments
CENTCOM requires that all personnel deploying in support of OIF be trained in
14 areas, including the defeat of improvised explosive devices, land navigation, and rules
of engagement. The Services incorporated these 14 theater-specific areas into their
predeployment and annual training requirements. In addition, the Services effectively
collected information from a variety of sources and regularly updated predeployment
training. As a result, the Services provided realistic, theater-inspired training for units
deploying in support of OIF.

Incorporating CENTCOM Requirements in Service
6B




Training
On February 7, 2005, CENTCOM issued guidance titled, “USCENTCOM Required
Individual Training for OIF and OEF [Operation Enduring Freedom] Deployment.” 1                  FF   FF




Training requirements appear below.


                        FY 2005 CENTCOM Required Training for OIF and
                                  Operation Enduring Freedom

           1. Country orientation brief                   8. First aid

           2. Anti-terrorism                           9. Unexploded ordnance and
                                                          improvised explosive device
           3. Rules of engagement                     10. Land navigation

           4. Rules for use of force                  11. Combat lifesaver

           5. Media awareness                         12. Combat stress and suicide
                                                          prevention
           6. Weapons qualification                   13. Regulatory briefings

           7. Nuclear, biological, and chemical 14. Compliance with law of war and
              personal protective measures          Geneva and Hague conventions

The Services have incorporated these mandatory training tasks into annual or
predeployment training requirements.




1
      During our review, on October 15, 2007, CENTCOM updated the training guidance for FY 2008 by
     adding 15 training requirements. We used the FY 2005 guidance for our review.
                                                      3
Army Training Requirements
17B




The Army incorporated mandatory CENTCOM training into predeployment training
requirements. Since July 2003, FORSCOM has updated training guidance 2 as necessaryFF   FF




for unit commanders preparing to deploy from the continental United States. This
guidance includes training requirements for units deploying in support of OIF. Units
deploying from the continental United States must comply with the requirements in
FORSCOM guidance when training for deployment.

      The FORSCOM guidance also applies to Navy individual augmentees and Air Force
      In-Lieu-Of units. Navy individual augmentees and Air Force In-Lieu-Of units train at
      Army mobilization stations when preparing for deployment to OIF. Training at the
      mobilization stations is prescribed by FORSCOM. FORSCOM training guidance
      includes all the mandatory CENTCOM training.

      For Army units deploying from the European theater, U.S. Army, Europe issued an
      Operations Order dated June 12, 2004. The Order includes an annex that specifies
      training requirements and includes all the mandatory CENTCOM training for OIF
      deployment.

Navy Training Requirements
18B




The Navy incorporated mandatory CENTCOM training into its training requirements.
The Navy deploys four types of expeditionary ground combat units in support of OIF:
Riverines, Seabees, Explosive Ordnance Disposal, and Maritime Expeditionary Security
Forces. Navy instructions and manuals provide training guidance for these units
deploying in support of OIF, while the units’ missions dictate how the units will train.

Various Navy instructions and manuals establish annual and predeployment training
requirements for sailors. Secretary of the Navy instructions require training on 7 of the
14 CENTCOM requirements. For example, Secretary of the Navy Instruction 3300.1B,
“Law of Armed Conflict (Law of War) Program to Ensure Compliance by the Naval
Establishment,” December 27, 2005, requires all Navy personnel to receive training and
education in the law of armed conflict.

Chief of Naval Operations instructions require training on five additional CENTCOM
requirements, including weapons qualification. These instructions provide additional
guidance regarding regulatory briefings and combat stress and suicide prevention, which
are also required by Secretary of the Navy Instructions. Finally, Navy Personnel
Manual 18068F, “Manual of Navy Enlisted Manpower and Personnel Classifications and




2
 We used “Training Guidance for Follow-on Forces Deploying ISO [in support of] Operation Iraqi
Freedom (OIF) Change 9 with Administrative Corrections,” May 16, 2007. After our review, on
September 24, 2007, FORSCOM updated this document and published “FORSCOM Training Guidance for
Follow-on Forces Deploying ISO Operations in Southwest Asia (SWA),” which applied to units deploying
after December 1, 2007.
                                                 4
Occupations Standards, Volume 1,” October 2003, requires training on the remaining two
CENTCOM training requirements, including nuclear, biological, and chemical personal
protective measures and first aid tasks.

Air Force Training Requirements
The Air Force incorporated mandatory CENTCOM training in annual and predeployment
training requirements for Security Forces. Air Force instructions and an Air Force
handbook provide guidance for annual and predeployment training requirements. Lesson
plans for security force units also provide guidance for predeployment training.

Air Force instructions and a handbook require annual or predeployment training on 13 of
the 14 CENTCOM requirements. For example, Air Force Instruction 10-245, “Air Force
Antiterrorism Standards,” June 21, 2002, mandates annual Level 1 antiterrorism training
for all personnel. In addition, Air Force Handbook 31-305, “Security Forces Deployment
Planning Handbook,” February 26, 2003, requires that deploying Security Forces
personnel be trained in explosive ordnance recognition and cultural awareness. The Air
Force administers this training through briefings, online training courses or training at
Regional Training Centers (RTCs).

Standardized lesson plans prescribe most of the training that Security Forces units receive
at RTCs. The Air Force developed these 21 lesson plans to provide a standardized course
of instruction for Security Forces units on topics such as land navigation, improvised
explosive device recognition, and rules of engagement. These lesson plans account for
five of the mandatory CENTCOM training areas, including combat lifesaver, which is not
required by Air Force instructions or handbooks.

19B   Marine Corps Training Requirements
The Marine Corps incorporated mandatory CENTCOM training in predeployment
training requirements. A commander message and a Marine Corps manual provide
training guidance for Marines deploying in support of OIF.

On July 6, 2005, the Commander, I Marine Expeditionary Force (MEF) issued “I MEF
Predeployment Training Requirements for OIF 05-07” (hereafter I MEF Training
Requirements) as guidance for units training for operations and missions in Iraq. The
I MEF Training Requirements include training on 11 of the 14 mandatory CENTCOM
training areas, including use of force, prevention of combat stress and suicide, and law of
war.

Navy Marine Corps 3500.18, “Marine Corps Common Skills (Vol. 1) Training and
Readiness Manual” (hereafter the Manual), June 21, 2007, establishes core training
requirements for Marines, including knowledge of first aid tasks and combat stress and
suicide prevention. The Manual requires training on five of the mandatory CENTCOM
training areas, three of which are not required by the I MEF Training Requirements,
including nuclear, biological, and chemical personal protective measures; land
navigation; and regulatory briefings.


                                             5
Using Lessons Learned and Input From Units To Update
7B




Service Training
The Services effectively collected theater information from lessons learned and deployed
and returning units, to update predeployment training exercises. The updated exercises
gave units the opportunity to train in current theater situations in a realistic, yet
controlled, environment.

Lessons Learned
The Army and Marine Corps collected information during military operations and used
that information to update training. The Center for Army Lessons Learned has personnel
deployed to Iraq to collect lessons from theater. These people disseminate information to
their Center for Army Lessons Learned counterparts at the Army maneuver combat
training centers, who in turn communicate the information to trainers. The Center for
Army Lessons Learned also publishes the information on the Web for trainers. Sharing
these lessons with trainers ensures training includes the most current tactics, techniques,
and procedures to prepare units going through predeployment training.

The Marine Corps Center for Lessons Learned also deploys personnel to Iraq to learn the
latest tactics, techniques, and procedures. While in Iraq, these personnel compile weekly
reports. The Marine Corps Center for Lessons Learned receives these reports and
distributes them to the Marine Corps training centers.

Input From Deployed and Returning Units
20B




Services solicited feedback from units in Iraq and redeployed units to update training to
simulate theater conditions. The Services obtained this feedback through predeployment
site surveys, regular communication with personnel in Iraq, and informal canvassing
throughout deployment cycles. The Services used this information to create a realistic
training atmosphere for units preparing to deploy in support of OIF.

       •   Predeployment Site Surveys. The Army conducted predeployment site
           surveys to update predeployment training. Predeployment site surveys are
           fact-finding visits in which commanders take staff members to theater and
           meet with the units they will be replacing. The predeployment site survey
           allows commanders to learn more about the mission they will support.
           Commanders use the information they collect from these visits to update
           predeployment training to simulate theater conditions.

       •   Communication With Personnel in Iraq. The Navy collected additional
           information on ground combat missions through feedback from sailors
           returning from OIF and regular phone calls and e-mails to Navy personnel in
           Iraq. Training centers incorporated the information in predeployment
           training. For example, trainers used information obtained from Explosive
           Ordnance Disposal theater detachments to gain insight when developing
           training scenarios. Explosive Ordnance Disposal trainers designed realistic


                                             6
           training scenarios that included new trigger mechanisms used in improvised
           explosive devices. Trainers incorporated the information into training in as
           little as a few days and shared the information with other Navy ground combat
           missions and Services.

       •   Canvassing Throughout Deployment Cycles. The Air Force canvassed
           airmen at three points during training and deployment. Second Air Force
           personnel collected information when airmen arrived at the Air Force training
           location, when they completed training, and again 30 to 60 days into
           deployment. The information that Second Air Force collected was related to
           the adequacy of training and equipment. This information helped Second Air
           Force make necessary changes to predeployment training for In-Lieu-Of units.

Realistic Training Atmosphere
21B




The Services used information collected from Iraq and from ground force units to create a
realistic training atmosphere for units preparing to deploy in support of OIF. Mission
rehearsal exercises were conducted at Army and Marine Corps training centers under
realistic conditions that induced combat stress. For example, the Army and Marine Corps
constructed mock Iraqi cities at training centers and hired local cultural role players,
some of Iraqi descent. These practices allowed units to meet CENTCOM training
requirements such as country orientation briefings, rules of engagement, and use of force,
while engaging in realistic combat scenarios. During these exercises, soldiers and
Marines tested their knowledge of rules of engagement and use of force by interacting
with role players rather than learning the rules from presentations and briefings.

Army training centers also incorporated first aid and combat lifesaver requirements
during predeployment mission rehearsal exercises. The training centers employed local
citizens and used makeup and other special effects to simulate wounds from explosions.
Soldiers had to administer first aid and employ combat lifesaving techniques on
“wounded” citizens and soldiers under stressful combat conditions.

Summary
8B




The Services not only incorporated mandatory CENTCOM training in their
predeployment and annual training requirements, but also incorporated these
requirements into hands-on training exercises. The Services collected information from a
variety of sources to capture theater-specific lessons and effectively used this information
to update training. By incorporating mandatory CENTCOM training along with
information collected from theater, the Services provided units with challenging, real-life
training scenarios. As a result, the Services created realistic, theater-inspired training for
units deploying in support of OIF.




                                              7
Appendix A. Scope and Methodology
9B




We conducted this performance audit from January to July 2007 and October 2007
through January 2008 3 in accordance with generally accepted government auditing
                              FF   FF




standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

We identified mandatory CENTCOM training and reviewed Service training
requirements to determine whether the Services incorporated the mandatory CENTCOM
training. We reviewed documentation, including CENTCOM and Military Service
instructions, memoranda, handbooks, manuals, and other training guidance. Publication
dates of these documents ranged from October 1992 through October 2007. During site
visits, we interviewed officials from U.S. unified commands and all of the Military
Services regarding predeployment training and training requirements. Officials we
visited and interviewed were from the following locations:

      U.S. Central Command                          Joint Multinational Readiness Center
      U.S. Joint Forces Command                     Office of the Chief of Naval Operations
      Army Central Command                          Navy Expeditionary Combat Command
      U.S. Army, Europe                             Expeditionary Combat Readiness Center
      U.S. Army Forces Command                      Air Combat Command
      U.S. Army Reserve Command                     Air National Guard
      First U.S. Army                               Second Air Force
      Army National Guard                           Air Education and Training Command
      Army Training and Doctrine Command            Headquarters, Air Force Security Forces
      Joint Multinational Training Command          Air Force Center for Lessons Learned
      Combined Arms Center                          Marine Corps Training and Education Command
      Center for Army Lessons Learned               Marine Corps Center for Lessons Learned
      National Training Center                      Marine Air Ground Task Force Training Command
      Joint Readiness Training Center




Use of Computer-Processed Data
28B




We did not use computer-processed data to perform this audit.


3
      We suspended this project from July to October 2007 because of resource constraints.
                                                         8
Prior Coverage
10B




During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DoD IG), and the U.S. Army Audit Agency have issued nine
reports discussing military training and training requirements. Unrestricted GAO reports
can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
                                   U                  U




can be accessed over the Internet at http://www.dodig.mil/audit/reports. Unrestricted
                                   HU                                UH




Army Audit Agency reports can be accessed at https://www.aaa.army.mil/reports.htm.
                                               HU                                   UH




GAO
2B




GAO-07-936, “Military Training: Actions Needed to More Fully Develop the Army’s
Strategy for Training Modular Brigades and Address Implementation Challenges,”
August 6, 2007

GAO-06-802, “Military Training: Management Actions Needed to Enhance DoD’s
Investment in the Joint National Training Capability,” August 11, 2006

GAO-06-193, “Military Training: Funding Requests for Joint Urban Operations Training
and Facilities Should Be Based on Sound Strategy and Requirements,” December 8, 2005

GAO-05-548, “Military Training: Action Needed to Enhance DoD’s Program to
Transform Joint Training,” June 21, 2005

GAO-04-547, “Military Operations: Recent Campaigns Benefited from Improved
Communications, but Barriers to Continued Progress Remain,” June 28, 2004

DoD IG
23B




DoD IG Report No. D-2008-033, “Training for U.S. Ground Forces at Army Maneuver
Combat Training Centers,” December 28, 2007

Army
24B




Army Audit Agency Report A-2006-0148-FFF, “The Army’s Mobilization Station
Process,” June 28, 2006

Army Audit Agency Report A-2005-0285-FFF, “Reserve Component Readiness
Reporting,” September 27, 2005




                                           9
Team Members
29B




The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Robert F. Prinzbach
Timothy M. Wimette
Melissa M. Quealy
Hillary J. Smith
Deanne B. Curry
Michael N. Hepler
Matthew D. Schwersenska
Loretta L. Loughner
Allison E. Tarmann
